DOE F 1325.8
(08-93)
                                                                                                  *
United States Government                                                        Department of Energy


Memorandum
        DATE:    May 15, 2006                                Audit Report Number: OAS-L-06-14
    REPLY TO
     ATTN OF:    IG-34 (A05TG027)
    SUBJECT:     Report on Audit of "The Department's Development and Implementation of the
                 Corporate Human Resource Information System"
           TO:   Chief Financial Officer, CF-1
                 Chief Human Capital Officer, HR-1
                 Chief Information Officer, IM-1

                 INTRODUCTION AND OBJECTIVE

                 The Department of Energy (Department) began the development of its Corporate
                 Human Resource Information System (CHRIS) in 1996. It is the official human
                 resource system of record for the Department's Federal employees. CHRIS
                 consists of several components, including the Human Resource Management
                 System, which maintains training and personnel records; Employee Self Service,
                 which provides employees with web-based access to personnel and payroll data
                 and permits them to update certain personal information; and QuickHire, which
                 automates the recruitment and hiring process.

                 In February 2001, the Office of Inspector General reported, in The U.S.
                 Departmentof Energy's CorporateHuman Resource Information System
                 (DOE/IG-0494), that CHRIS had not satisfied all Federal and Departmental
                 requirements and had not met certain Departmental goals. Specifically, the audit
                 showed that the processes for tracking development and implementation costs
                 were inadequate and that plans to reengineer certain human resource processes and
                 eliminate redundant systems had not been met. We conducted this follow-up audit
                 to determine whether CHRIS delivered planned benefits and addressed original,
                 defined requirements.

                 CONCLUSION AND OBSERVATIONS

                 The Department's implementation of CHRIS achieved many of its original,
                 defined requirements to automate human resource work processes, including
                 enhancing operational efficiencies, reducing paperwork, and providing information
                 necessary to help make sound human resource decisions. In addition, tests of data
                 reliability demonstrated that information contained in CHRIS was generally
                 accurate and up-to-date. While the project satisfied many of its original goals, it
                 did so at a cost significantly higher than anticipated. A required post-
                 implementation review, that may have determined the causes of the cost overruns
                 and helped the Department apply those lessons learned to other on-going efforts,
                 also had not been conducted.
                         Development and Implementation

Costs to implement CHRIS escalated significantly beyond the project's original
life-cycle cost estimate. In our report on The U.S. Department of Energy's
CorporateHuman Resource Information System (DOE/IG-0494, February 2001),
we estimated.that total life-cycle costs for CHRIS would exceed original estimates
by 155 percent - from $8 million to $20.4 million through Fiscal Year (FY) 2005.
However, actual costs incurred through FY 2005 were approximately $37 million,
or 360 percent higher than original estimates. The Department attributed the
increase in cost, in part, to new requirements that did not exist at the time of the
original cost estimate. For example, project officials indicated that requirements
from the Thrift Savings Board, Congress, the Office of Personnel Management,
and the President's Management Agenda necessitated adjustments to CHRIS.
Management, however, was unable to provide us with a detailed breakdown of
costs and we were unable to determine the exact nature of the costs associated with
meeting these requirements.

Although planned and required, the Department did not evaluate the CHRIS
project upon initial implementation. While the 2001 CHRIS Program
Management Plan included plans to "share the lessons learnedfrom the
development of CHRIS with others to avoidfuture problems in software
development," we found this was not done. As noted in DOE Manual 413.3-1,
Project Managementfor the Acquisition of CapitalAssets, post-implementation
reviews are required for major information systems. The process includes
revisiting the original project planning documentation and documenting lessons
learned upon implementation of the system. Evaluating the project upon
implementation helps management identify both accomplishments and
shortcomings in achieving project goals.

                           Project and Cost Management

Cost and implementation issues were attributable, at least in part, to the
inconsistent application of sound project life-cycle management techniques. In
particular, responsibility for project management shifted between program
elements on several occasions, original cost estimates were inadequate, and plans,
estimates, and baselines were not modified to address development changes.

There was a lack of continuity in project management due to the transfer of project
ownership between several program offices and corresponding changes in project
managers. The CHRIS system development effort was initiated under the
ownership of the Office of Human Resources within the Office of Management
and Administration in 1998 and was subsequently transferred to the Office of the
Chief Information Officer (CIO). The Office of the Chief Financial Officer,
Office of Corporate Information Systems, assumed ownership of the project in
January 2002. Generally accepted best practices cite continuity of project
leadership and management as critical for a successful outcome. The CIO
Council's 1999 report on Best IT Practicesin the FederalGovernment noted that
"the extent to which the same senior manager is involved in all phases of the
project significantly increases the prospect for success, particularly those involving
multi-year system development activities."
                                   2
At least one other factor impacting the CHRIS project budget overruns was the
failure to prepare accurate and well-supported budget estimates during the project
planning phase. As we determined and as affirmed by the current project director,
original project cost estimates were significantly understated because they did not
fully consider the life-cycle costs of the project. In fact, planning and acquisitions
costs alone were $24 million through FY 2005 and exceeded the entire original
life-cycle cost estimate by 200 percent. The current project director acknowledged
that better estimates during the development phase could have prevented this issue.

Although it concurred and committed to do so, the Department did not fully
implement the recommendation contained in our 2001 report to revisit the CHRIS
project and prepare an updated cost/benefit analysis. Despite changes in project
scope, costs, and timelines, management did not modify project documentation
during development or reestablish project baselines. While management officials
did perform analyses on one component of CHRIS and on FY 2006 and out-year
costs and benefits, the effort did not provide an overall picture of the project's
cost/benefit or its return on investment from inception. Without such analyses,
management lacked the tools necessary to closely monitor project cost, schedule
and performance.

SUGGESTED ACTIONS

To help ensure that lessons learned during the CHRIS development are applied to
on-going and future projects, we suggest that the Office of Corporate Information
Systems, in conjunction with the Chief Human Capital Officer and the CIO,
evaluate the lessons learned from the CHRIS system development project and
reinforce valuable best practices that should be applied to future system
development initiatives, to include:

    1. To the extent possible, maintaining continuity of project management;

    2. Developing thorough project cost estimates; and,

    3. Revisiting project plans, estimates, and baselines, as major changes occur
       during development and/or implementation.

Since no formal recommendations are being made in this report, a formal response
is not required. We appreciate the cooper 'on of your staff during this audit.




                               Rickey R. Hass
                               Assistant Inspector General
                                  for Financial, Technology, and Corporate Audits
                               Office of Audit Services
                               Office of Inspector General

Attachment
                                  3
cc: Chief of Staff
    Director, Policy and Internal Controls Management, NA-66
    Team Leader, Audit Liaison, CF-1.2
    Audit Liaison, IM-10
    Audit Liaison, HR-1
    Audit Liaison, EM-33
    Audit Liaison, FE-3
    Audit Liaison, NE-10
    Audit Liaison, SC-32.1




                               4
                                                                       Attachment


SCOPE AND METHODOLOGY

The audit was performed between January 2005 and January 2006 at Departmental
Headquarters in Washington, D.C. and Germantown, Maryland; and the National
Energy Technology Laboratory in Morgantown, West Virginia. We evaluated the
project's goals and requirements, examined the differences in projected versus
actual costs and benefits, and examined opportunities for improving future
information technology project management. Additionally, we tested data
accuracy by examining Fiscal Year (FY) 2005 personnel information.

To accomplish our audit objective, we:

   * Reviewed applicable laws and directives pertaining to system development
     and project management, including.Departmental Order 413.3, Program
     and ProjectManagementfor the Acquisition of CapitalAssets and Manual
     413-3.1 Project Managementfor the Acquisition of CapitalAssets.

   * Reviewed several documents related to the planning and implementation of
     Corporate Human Resource Information System (CHRIS), including the
     Strategic Information Management Project Results and Business Case
     Analysis and the Program Management Plan. We also reviewed current
     cost information, including the CHRIS Exhibit 300 information submitted
     to Office of Management and Budget.

   *   Reviewed the Department's overall post-implementation guidance and
       practices throughout the organization.

   *   Held discussions with CHRIS project officials and officials from various
       Departmental offices, including the Office of Management, Budget and
       Evaluation.

   *   Reviewed reports by the Office of Inspector General and the General
       Accounting Office.

We also evaluated the Department's implementation of the Government
Performanceand Results Act and determined that it had established performance
measures for the CHRIS project. We used advanced audit techniques to assess
data reliability of the CHRIS information. We obtained electronic information
from CHRIS and utilized computer assisted audit techniques to identify
inconsistencies. We also compared selected CHRIS data elements to source
personnel files. While we initially identified some anomalies between electronic
and source data, we determined that the data was sufficiently reliable for the
purposes of our audit.
                                                                      Attachment


The evaluation was conducted in accordance with generally accepted Government
auditing standards for performance audits and included tests of internal controls
and compliance with laws and regulations to the extent necessary to satisfy our
objective. Accordingly, we assessed internal controls regarding the development
and implementation of automated systems. Because our review was limited, it
would not necessarily have disclosed all internal control deficiencies that may
have existed at the time of our evaluation.




                                 2
